REVIEW OF SCREENING, PLACEMENT, AND
 INITIAL TRAINING OF NEWLY HIRED AIR
        TRAFFIC CONTROLLERS
       Federal Aviation Administration

        Report Number: AV-2010-049
         Date Issued: April 1, 2010
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Review of Screening, Placement, and                Date:    April 1, 2010
           Initial Training of Newly Hired Air
           Traffic Controllers
           Federal Aviation Administration
           Report Number AV-2010-049

  From:    Lou E. Dixon                                            Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           This report provides the results of our audit of the Federal Aviation
           Administration’s (FAA’s) policies and procedures for screening, placing, and
           initially training newly hired air traffic controllers. Over the next decade, FAA
           plans to hire and train nearly 15,000 new controllers to replace those who were
           hired after the 1981 strike and are now retiring. With this large influx of new hires
           planned, examining and improving its processes for integrating new controllers
           into the current workforce will be a significant challenge for FAA.

           We conducted this review at the request of Representative Jerry F. Costello,
           Chairman of the House Subcommittee on Aviation. Chairman Costello expressed
           particular concern about whether FAA’s screening test identifies candidates’
           potential to become air traffic controllers and whether the FAA Academy
           adequately trains candidates before FAA places them at facilities.

           Accordingly, our audit objectives were to (1) evaluate how FAA determines
           whether candidates have the requisite abilities to become successful controllers,
           (2) determine what procedures FAA uses to place controllers at air traffic
           facilities, and (3) assess whether the initial training provided by the FAA
           Academy adequately prepares new controllers for facility on-the-job training
           (OJT). We conducted this review between December 2008 and October 2009 in
           accordance with government auditing standards prescribed by the Comptroller
           General of the United States. Exhibit A details our scope and methodology.
           Exhibit B lists the specific organizations we visited or contacted.
                                                                                  2


RESULTS IN BRIEF
FAA’s process for selecting and placing new controllers does not sufficiently
evaluate candidates’ aptitudes before placing them at facilities. Currently, FAA
does not use results of its controller aptitude test (the Air Traffic Selection and
Training test, or AT-SAT) to determine the level of facility in which new
controllers are placed. Instead, FAA assigns new controllers to locations based
primarily on their facility choice and available vacancies. As a result, new
controller candidates are being assigned to some of the busiest air traffic control
facilities in the Nation with little consideration of whether they have the
knowledge, skills, and abilities necessary to become certified controllers at those
locations. These include critical facilities within the National Airspace System,
such as the Southern California Terminal Radar Approach Control and the
Chicago O’Hare and Atlanta Hartsfield Air Traffic Control Towers.

FAA also does not use candidates’ initial performance at the Academy to
determine the level of facility in which new controllers are placed. Although all
controller candidates must attend 2 to 3 months of initial training at the Academy
after passing AT-SAT, controller candidates are assigned to a facility before
entering Academy training.

Initial training at the FAA Academy is currently focused more on short-term
memorization rather than developing a long-term skill set and, according to
facility managers, does not adequately prepare candidates to begin facility training
at their assigned locations. Facility managers we spoke with stated that candidates
arrive after passing Academy training unprepared to begin facility training, often
requiring additional time and resources to refresh them on subjects previously
taught at the Academy. FAA internal studies have noted similar concerns. In an
internal analysis conducted in November 2007, FAA found that Academy training
needed to focus more on basic air traffic control concepts—such as phraseology,
issuing clearances, and aircraft characteristics—and less on retaining knowledge
just long enough to pass a test. The study recommended numerous changes to
initial training, but more than 2 years since its completion, changes have not been
implemented.

We are making recommendations to FAA on actions needed to improve its
controller screening, placement, and initial training programs.

BACKGROUND
After the 1981 controller strike, FAA screened candidates primarily using a
9-week training course taught at the FAA Academy. The program proved highly
effective at identifying candidates’ potential abilities—with only a 57-percent pass
rate for the 27,925 controller candidates screened between 1981 and 1992.
                                                                                            3


However, this process was expensive, costing about $20,000 per candidate, so
FAA began developing AT-SAT in the 1990s to achieve a less costly and more
streamlined screening tool to identify candidates with the best controller aptitudes.
In designing AT-SAT, FAA scientists performed a detailed analysis to identify the
specific tasks that controllers must complete and measure the skills that support
those tasks. Currently, FAA employs the following three-step indoctrination
process for newly hired air traffic controller candidates:

• Screening: AT-SAT consists of an 8-hour series of aptitude tests. Controller
    candidates with no previous air traffic control experience and those who have
    graduated from a Collegiate Training Initiative program are screened using AT-
    SAT. 1 Candidates must score at least 70 percent on the exam to be considered
    for employment. Controller candidates with prior air traffic control experience,
    such as ex-military controllers, are exempt from taking AT-SAT.

• Placement: After completing screening, new candidates are assigned to a
    facility location. This is done by creating a list of facility vacancies and eligible
    applicants. A group of air traffic facility managers then meets at least once a
    quarter and attempts to match the assignment preference of each candidate to the
    needs of specific air traffic control facilities. Air traffic control facilities are
    categorized by levels (4 through 12) based on the complexity and number of
    operations. Level 4 facilities are the least complex while Level 12 are the most
    complex. Controllers’ base salaries are determined by the level of the air traffic
    control facility to which they are assigned.

• Initial Training: Before they begin training at their assigned facilities, most
    new controllers must complete 2 to 3 months of initial training at the FAA
    Academy. This training consists of lectures and simulation problems in basic air
    traffic control concepts and procedures. Upon completion of these courses, the
    candidate must then pass the Performance Verification, or PV. This is a final
    examination of learned knowledge and skills using simulators and is overseen
    by current operations supervisors from selected air traffic facilities.

FAA Is Not Using Its AT-SAT Screening Tool Effectively
FAA does not use AT-SAT results to determine the level of facility in which new
controllers are placed even though the number of inexperienced controller
candidates being hired and screened by AT-SAT is increasing. For example, the
number of new hires with no prior air traffic control experience increased from
7 percent of those hired in fiscal year (FY) 2007 to approximately 72 percent
during the first half of FY 2009. This has resulted in an increase of inexperienced
controllers being assigned to high level air traffic control facilities. As shown in

1
    (CTI) Colleges that provide FAA-accredited courses in air traffic control principles.
                                                                                    4


the chart below, in FY 2008, 58 percent (881 of 1510) of all newly hired
controllers with no prior air traffic control experience were placed at Level 10
through 12 facilities (the busiest and most complex in the Nation). These include
facilities such as the Southern California Terminal Radar Approach Control and
the Chicago O’Hare and Atlanta Hartsfield Air Traffic Control Towers.

   Figure 1. Facility Placement of New Controllers with No Prior Air
              Traffic Control Experience During FY 2008

                     400
                                                                              399
                     350
                     300                                                269
         New Hires




                     250                                          213
                                       195
                     200
                     150        127              123      116
                     100   68

                     50
                      0
                           5    6      7         8        9       10    11    12
                                             Facility ATC Level

Source: Aviation Careers Division, FAA Academy

In addition, overall AT-SAT scores have been higher than originally expected.
Although the FAA scientists who designed AT-SAT predicted that only
67.5 percent of all applicants would pass AT-SAT as originally designed, nearly
93 percent of all applicants currently achieve a passing score. AT-SAT has a high
pass rate primarily because FAA reweighed elements from the original test, based
on concerns of possible adverse impacts, which ultimately reduced focus on
specific air traffic control aptitudes.

FAA also groups AT-SAT results by placing all passing scores into two broad
“score bands” making it difficult to match a controller’s aptitudes with the
appropriate facility level. Candidates who score from 70 to 84.9 are ranked as
“Qualified,” while those who score from 85 to 100 are ranked as “Well Qualified.”
Therefore, a candidate who scored an 85 percent on AT-SAT could unknowingly
be assigned to a Level 12 facility over a candidate that scored 100 percent.

Without a more effective means of measuring the potential for success at high
level facilities, FAA runs the risk of being unable to retain a sufficient number of
qualified controllers at some of the most critical facilities within the National
Airspace System. Early indicators show this is an issue that needs to be closely
monitored as more new controllers end training. For example, although most new
controllers are still in various stages of training (currently over 3,200 according to
FAA), of the 233 new controllers with no prior air traffic control experience who
                                                                                   5


ended training during FY 2008, 109 did not certify at their assigned location. The
Civil Aeronautical Medical Institute (CAMI) plans to conduct a statistical
assessment of AT-SAT to determine if the test scores could be used for
ascertaining the level of facility in which candidates would likely succeed.
However, CAMI scientists we spoke with candidly expressed doubt about the
test’s ability to effectively screen controller candidates.

FAA Places New Controllers at Facilities Based Primarily on
Candidates’ Preferences
FAA currently assigns new controller candidates to facilities by considering
candidates’ location preference, a summary of information from their employment
application, and a list of job openings. As shown in figure 2, controller candidates
are assigned to a facility before they undergo medical and security screening,
receive a tentative employment offer from the Agency, or attend the FAA
Academy for initial training. Candidates are not even given a face-to-face
interview with FAA officials prior to receiving their facility assignment.

                Figure 2. FAA Current Screening, Placement, and
                            Initial Training Process




Source: FAA and Office of Inspector General


The facility placement process is conducted by a Centralized Selection Panel,
consisting of managers from selected air traffic facilities, that assigns candidates
using a referral list. As shown in figure 3, (an actual referral list used in January
2009), these panel members have only limited data on candidates’ AT-SAT results
                                                                                  6


(column C). They primarily base facility assignments on applicants’ geographical
choices by state (columns E and F) and applicants’ choices on their desired type of
facility—either en route or terminal (columns G and H).

               Figure 3. Example of Referral Lists Used by
                       Centralized Selection Panels




FAA Does Not Use Academy Training as a Performance Criteria in Its
Placement Process
The FAA Academy provides an opportunity for many experienced controllers to
evaluate candidates in a controlled environment. However, FAA does not use
candidates’ performance during initial training in determining the level of facility
in which the candidates are placed. FAA personnel at FAA Headquarters, the
FAA Academy, and selected air traffic control facilities almost unanimously
supported making facility assignments after Academy graduation. Though they
had some reservations about how much useful knowledge could be gained from
the short time that candidates spend in initial training, they agreed that the
repositioned placement process would be more performance-based. Figure 4
shows that candidates preparing to attend the FAA Academy could be sent to a
Pre-Employment Processing Center, at which time they could receive their
training option assignments (En Route or one of the Terminal options), based on
their employment application.
                                                                                     7


              Figure 4. Recommended Screening, Placement, and
                            Initial Training Process




 Source: Office of Inspector General


Actual facility assignments could be made after Academy graduation, based on the
candidates’ Academy training performance and the data currently being used, such
as prioritized vacancies and candidates’ preferences. By moving the placement
decision after initial training, FAA could be in a better position to match
potentially high performing candidates to appropriately complex facilities.
Additionally, students would be motivated to maximize their personal
performance, since their assignment location, as well as their pay, would depend
on their own performance.

FAA Initial Academy Training Does Not Provide the Fundamentals
Necessary for New Candidates To Begin Facility Training
As currently structured, the FAA Academy does not provide new controller
candidates with sufficient instruction in the fundamental air traffic control
knowledge and skills necessary to become certified controllers. Air traffic
managers we interviewed cited weak basic skills in all candidates when they arrive
at their assigned location to begin their facility training. This is largely due to the
training and testing procedures at the FAA Academy, which facilitate student
learning for the purpose of passing a specific test, instead of long-term retention of
basic air traffic control procedures.

The FAA Academy’s current classroom lecture and testing process makes it easy
to learn new material in order to pass the next test, and then forget the information
learned. FAA officials describe this as the “learn and dump” approach to
Academy training. In a November 2007 study conducted by the Controller
                                                                                                                8


Training and Development Group, FAA found that Academy training methods
need to focus more on learning and retaining basic air traffic control concepts. 2
According to the Group report:

          ...there needs to be more emphasis placed on fundamentals such as
          phraseology, procedures, issuing clearances, aircraft characteristics,
          separation, point outs, and handoffs. An assessment of training conducted
          by ATO-S [safety] recommended increased emphasis on critical job
          functions and to minimize the ‘learn and dump’ syndrome in which
          students learn something just long enough to pass the test.

The report further recommended air traffic simulator problems that more
effectively challenge the knowledge and skills students obtain in the En Route
Academy training. All of these changes should encourage the study and
application of air traffic control fundamentals. These concerns were reinforced
during interviews we conducted with air traffic facility managers. Facility
managers stated that they assume Academy graduates have no basic air traffic
control knowledge and begin initial training again when Academy graduates arrive
at their assigned facility. Other managers develop written assessments to
determine the level of basic knowledge of each Academy graduate and then tailor
a training program for each one.

Final Performance Verification Tests Do Not Adequately Assess Whether
Candidates Have the Core Skills Needed To Succeed as Air Traffic
Controllers
All students attending the FAA Academy are required to pass Performance
Verification (PV) before reporting to their assigned facility. The PV consists of
two parts: a knowledge test and a performance skills assessment. The knowledge
test is given halfway through the Academy training program, and every candidate
that has taken this test has passed. The performance skills assessment is a set of
simulated air traffic scenario problems given at the end of the Academy program.
These problems are observed and evaluated by front-line managers who are
current air traffic controllers. Almost 95 percent of all candidates pass this
assessment and then begin their facility training. However, FAA Academy,
CAMI, and facility personnel had several criticisms of this part of the current PV
process. For example:

    • The PV assessment is limited to either pass or fail. Therefore, facility
      managers know little useful information about the specific training needs of
      their incoming candidate controllers. Specifically, managers in the field cited

2
    En Route Initial Qualification (Stage 1) Training Redesign Front End Analysis: Requirements, Deficiencies, and
    Opportunities for Improvement, November 2007.
                                                                                    9


   weaknesses in air traffic controller fundamentals such as phraseology and
   aircraft characteristics. Pass or fail scores also mean FAA is missing a critical
   metric to analyze the relationship between training performance and later
   potential job performance.

 • There is no objective standard by which the PV is graded. Scores are based
   strictly on the subjective assessment of the designated examiners, which we
   found can vary extensively. For example, we found instances where
   candidates passed the PV with two loss of separation errors during the PV
   while other candidates failed the PV with no loss of separation errors.

The PV could be redesigned as a comprehensive final assessment that ensures
candidates have the ability to succeed in facility training. Specifically, it could be
designed to assess the specific skills needed to begin facility training and be
uniformly applied. This could reduce the attrition rate during facility training by
screening out underperforming candidates before they reach their air traffic
facility. The November 2007 study conducted by the Controller Training and
Development Group also suggested significant changes to the PV similar to those
we have identified.

FAA Has Not Implemented Changes Recommended by the Controller
Training and Development Group
Despite the critical nature of air traffic controller training at a time when FAA is
increasing its hiring of inexperienced new candidates, FAA is only now planning
to implement the changes recommended by the 2007 Controller Training and
Development Group. According to the Group, the En Route training redesign will
be implemented in 2010. However, by then it will have taken more than 2 years to
implement the results of a study that uncovered significant deficiencies. FAA
needs to expedite this implementation.

FAA is also planning to redesign the FAA Academy training program for the
Terminal courses. To date, there have been workgroup discussions about
redesigning the structure and classes of the program. Some suggestions include
following a plan similar to the En Route training redesign breaking training into
groups of candidates going to facilities of similar complexity, and developing new
classes. However, the redesign of the Terminal program is moving significantly
slower than the En Route program. FAA needs to respond more proactively to its
own analysis and implement the recommendations from the November 2007 study
in its redesign of both the En Route and Terminal training programs.
                                                                                                     10


CONCLUSION
Air traffic controllers play a critical role in maintaining the safety and efficiency
of the National Airspace System. FAA continues to face a tremendous challenge
in carrying out its goals to hire and train 15,000 new controllers over the next
decade to replace those who were hired after the 1981 strike and are now retiring.
To effectively achieve this goal, FAA needs to redesign its screening, placement,
and initial training processes to ensure that candidates have the core skill set
needed for advanced training, thereby mitigating potential safety risks.

RECOMMENDATIONS
We recommend that FAA:

    1. Evaluate the current AT-SAT test and redesign it so that it results in air traffic
       controllers being placed at locations according to their skill sets.

    2. Assign controller candidates to a facility based on their Academy performance
       in conjunction with data currently available.

    3. Implement the recommendations of the November 2007 Controller Training
       and Development Group for both En Route and Terminal Academy training.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided our draft report to FAA for comment on January 26, 2010, and
received FAA’s formal response on March 18, 2010. In its response, FAA
partially concurred with our recommendations and disagreed with some of our
report’s conclusions, pointing to various successes the Agency has had in hiring
and training the next generation of air traffic controllers. We do not question
FAA’s past accomplishments or its dedication to safety. We have been following
and reporting on FAA’s progress in this important area since 2003 and have
recognized FAA’s achievements, particularly with its successful efforts to
centralize and expedite its hiring process for new controllers. However, we have
also made numerous recommendations for improving its controller training
processes, which FAA has generally agreed with and successfully implemented.
For example, in 2004, we recommended that FAA develop and implement a
national training database, which the Agency currently uses to oversee its large
and diverse facility training efforts. 3


3
    OIG Report Number AV-2004-060, “Opportunities To Improve FAA's Process for Placing and Training New
    Controllers in Light of Pending Retirements,” June 2, 2004. OIG reports are available on our website:
    www.oig.dot.gov.
                                                                                 11


To build upon these successes, however, it is important to continually assess and
improve the placement process—especially since most new controllers now being
hired have no previous air traffic control experience, a significant change from
several years ago. Yet, FAA’s response to our report indicates that the Agency
believes the process it has used for some time is sufficient. Given the rapidly
changing demographics of the controller workforce, we question why FAA would
not be more receptive to other opportunities to improve this critical process.

FAA’s response also suggests that our recommendations are based on our own
supposition, with which we take exception.                  Our conclusions and
recommendations are based on extensive analyses of FAA’s own data and
numerous interviews with FAA and contract personnel responsible for managing
controller training on a daily basis at the FAA Academy and air traffic facilities.
Those personnel include facility, training, and operations managers; first-line
supervisors; FAA and contract instructors; union representatives; CAMI scientists;
Terminal Facility Training Redesign task force participants; and bargaining unit
controllers. Nearly all of these personnel agreed that FAA needs to improve its
methods for placing new controllers. In addition, facility managers and
supervisors repeatedly told us that new controllers are arriving at their facilities
unprepared to begin facility training. FAA’s response indicates that there is a
substantial difference of opinion between FAA Headquarters management and
field personnel about the effectiveness of the current controller placement process.

Despite its partial concurrence, FAA generally agreed with the corrective actions
we recommended. For recommendation 1, FAA stated that it plans to complete its
ongoing evaluation of the fairness, reliability, and utility of the AT-SAT battery
[series of tests] as a potential tool to assist in guiding placement decisions by
December 31, 2012. In its response to a similar recommendation we made in our
2004 report, FAA stated at that time:

   A significant part of AT-SAT administration is the ongoing validation of the
   instrument. . . . The FAA is hopeful that the data gathered will help us
   understand how a newly hired controller’s AT-SAT score relates to their
   training and performance as an on-the-job developmental controller.
   Depending on the results, this information may allow us to improve our
   placement processes to better match high aptitude with high-level facilities.

We are hopeful that by the end of 2012 and 8 years of study, FAA will be able to
determine conclusively if it can effectively use AT-SAT as a tool in guiding its
placement decisions. We consider the recommendation addressed but open
pending the completion of FAA’s study.

For recommendation 2, FAA stated that it has a long and successful track record
for effectively selecting, training, and assigning new controllers to positions in
                                                                                 12


facilities. However, as we cited in our report, early indicators and statements from
facility managers show this area warrants additional management attention and
course redesign and redirection. Although most new air traffic controllers are still
in various stages of training, of the 233 new controllers with no prior air traffic
control experience who ended training during FY 2008, 109 did not certify at their
assigned location. Additionally, since the beginning of FY 2008, FAA reassigned
more than 300 new controllers to lower level facilities, and an additional 227 new
controllers requested reassignment. While FAA’s response emphasized the
success of its current placement process and disagreed with “the mechanism of the
recommendation,” FAA did agree to study restructuring it based on individual
controllers’ Academy performance. FAA stated that it will complete the study by
December 2012. We consider the recommendation addressed but open pending
the receipt of a written study evaluating whether Academy performance can be
used in the placement of new controllers.

For recommendation 3, FAA partially concurred, stating that while the 2007 En
Route “front-end” analysis was used in redesigning the En Route initial training
course, it did not cover Terminal training. FAA further stated that it developed
and completed a separate analysis for the Terminal environment, which it will use
in redesigning the Terminal initial training course.        The intent of our
recommendation was to take lessons learned from the En Route analysis and apply
them to Terminal training so that it does not take another 4 years from study
completion to training course redesign. FAA stated that it will adopt the lessons
learned in the En Route initial training course redesign. Therefore, we consider
this recommendation addressed but open pending completion.

In summary, we will continue to closely monitor FAA’s actions to address our
recommendations, particularly in light of FAA’s dismissive tone regarding their
merit.

ACTIONS REQUIRED
FAA’s planned actions and target dates are responsive to our recommendations.
We consider these recommendations addressed pending completion of the planned
actions. We appreciate the cooperation of FAA representatives during this audit.
If you have any questions concerning this report, please contact me at (202) 366-
0500 or Dan Raville, Program Director, at (202) 366-1405.

                                         #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    Martin Gertel, M-100
    Anthony Williams, ABU-100
                                                                                   13



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit December 2008 to October 2009 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The following scope and methodology
were used in conducting this review at FAA Headquarters, the FAA Academy, and
five Air Traffic facilities.

To evaluate the current performance of FAA’s screening, placing and initial training
process for newly hired controllers, we collected information from FAA’s National
Training Database. We requested data on all newly hired controllers from fiscal year
(FY) 2008 who either attrited from facility training or successfully completed on-the-
job training. We factored out all controllers whose training was still in progress
because the final outcome of their on-the-job training was unknown.

We obtained a list from the Civil Aeronautical Medical Institute (CAMI) of all
controller candidates who attended the FAA Academy and were screened with the Air
Traffic Selection and Training test (AT-SAT). We compared these two data sets and
developed a list of all controllers who had been screened with the AT-SAT and had
completed or attrited from training during FY 2008. This data set was analyzed by
the Senior Statistician for the Office of Inspector General to determine the
effectiveness of FAA’s screening, placing, and initial Academy training programs.

Finally, to determine common causes and factors that contributed to the training
attrition rate, we conducted numerous interviews with FAA and contract personnel
responsible for managing controller training on a daily basis at the FAA Academy and
air traffic facilities. Those personnel include facility, training, and operations
managers; first-line supervisors; FAA and contract instructors; union representatives;
CAMI scientists; Terminal Facility Training Redesign task force participants; and
bargaining unit controllers.




Exhibit A. Scope and Methodology
                                                                               14



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
FAA Headquarters, Washington, District of Columbia

National Air Traffic Controllers Association Headquarters, Washington, District of
Columbia

FAA Training Academy, Oklahoma City, Oklahoma

Aviation Careers Division, Oklahoma City, Oklahoma

Civil Aeronautical Medical Institute, Oklahoma City, Oklahoma

Eastern Regional Service Center, Atlanta, Georgia

Potomac Terminal Radar Approach Control

Atlanta En Route Center

Atlanta Terminal Radar Approach Control

Atlanta Hartsfield –Jackson International Airport




Exhibit B. Organizations Visited or Contacted
                                                          15



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Daniel Raville                         Program Director

Robert Romich                          Project Manager

Erik Phillips                          Senior Analyst

Petra Swartzlander                     Statistician

Benjamin Huddle                        Analyst

My Phuong Le                           Analyst

Mi Hwa Button                          Analyst

Andrea Nossaman                        Writer/Editor




Exhibit C. Major Contributors to This Report
                                                                                                16



APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:          March 18, 2010
To:            Lou Dixon, Assistant Inspector General for Aviation and Special Program
               Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:       OIG Draft Report: Screening, Placement, and Initial Training of Newly Hired
               Air Traffic Controllers

Over the past few years, the Federal Aviation Administration (FAA) has demonstrated a proven
capability to select the best possible candidates to become air traffic controllers, train them to
exacting standards, and ensure only the most qualified certify to control the more than 7,000
aircraft aloft at any moment over the continental United States controlled airspace. Controller
candidates are trained to the most rigorous standards in the world, including multiple levels of
classroom, simulator, and on the job training before they can reach certified professional
controller status. This multi-step process requires placing candidates coming out of the
Academy in facilities near where they are willing to live and work. At those facilities, the
candidates continue their learning and development in a closely supervised, structured
environment. It is an erroneous conclusion to assert that FAA’s process for selecting and
placing new controllers is ineffective, based only on the limited evaluation of test processes and
locations presented in the OIG draft report. It is also not clear that all of the report’s
recommendations fully comport with contemporary human capital management practices.
Furthermore, the OIG draft report provides no analytical basis to support any conclusion that its
recommendations would actually improve the process. While the FAA continues to explore
scientifically based potential improvements and refinements to its candidate selection and
training processes to make them more efficient, U.S. air traffic controllers are among the best in
the world and FAA’s training is second to none.

New Controllers Bid Locations Where They are Willing to Live and Work

With the considerable and well publicized analyses of efforts to improve human capital
management at FAA, the OIG draft report’s implication that new controllers should be assigned
a location based on the results of a test score is surprising. FAA is not a military organization
that shifts and moves staff at will, rather it is managing a highly skilled, unionized civilian
workforce, whose viewpoints must be factored into decision making. However, it is not simply a


Appendix. Agency Comments
                                                                                                  17


matter, as implied in the draft report, of new controller choice. Controllers are screened and
hired with the intent of filling vacancies at specific locations, but must successfully pass
interviews before being assigned to any specific facility. Once assigned to a facility, they first
attend initial training at the FAA Academy and then continue their extensive development
through a period of closely monitored academics, simulations, and on the job training. Initial
academy training is only 10 percent of the total training given to air traffic control students and
successful completion of academy training is no guarantee of success in the field. While the
draft report expresses concern about the facility level new controllers may be assigned to, any
new controller is given extensive training and then must demonstrate the capability to function
effectively at a given facility to continue there as an air traffic controller. While FAA recognizes
that there may be potential means to further improve the efficiency of this process, and is
working to achieve those efficiencies, its dedication to safety is unwavering. FAA is continuing
research into its testing and development process to further improve the efficiency of the
processes used to screen candidates to increase the likelihood of new controller success at the
facilities where they are assigned.

Academy Training Provides Basic Skills for Development in the Field

FAA’s air traffic control training academy is the world’s preeminent facility of its type, capable
of providing basic air traffic control training to individuals with the appropriate aptitude from the
general public. During the last round of hiring, initiated in July 2009, FAA received 9,072
applications for a limited number of openings. Of these, 6,378 candidates passed through initial
screening processes and FAA ultimately referred 5,516 for testing. A total of 3,148 scored 85 or
above and were considered “well qualified.” The FAA must consider all 3,148 prior to selecting
individuals who scored below 85. Ultimately, the FAA will select and hire about 500 of the very
best, most qualified candidates from this list, thus screening out 95 percent of the original
applicants.

Currently there are about 3,640 new hire controllers moving through the training system. To
address the well anticipated retirement wave, this number is considerably greater than it was in
the 1990s, but still lower than historic norms in the post-strike era of the 1980s. The current
large number of developmentals has required some adjustments throughout the system. The
Academy continues to provide the basic skills training to new controllers, including a
fundamental understanding of terminology, processes, and equipment. While this basic training
is somewhat critically referred to in the OIG draft report as “short term memorization,” it is
necessary to establish a basic understanding of the terminology, process, and equipment as a
foundation for the more advanced and specific skills needed as an air traffic controller taught at
the facility. With the large numbers of new controllers passing through the system, adjustments
have been needed downstream from the Academy as well and facilities, including some of the
busier terminal radar approach controls (TRACONs), have had to place increased emphasis on
new controller development. FAA recognizes that this has placed increased responsibilities upon
some facility managers who are unaccustomed to the skill level of new controllers they may be
receiving. FAA has already made progress in this area. For example, it is implementing
initiatives to help high level Terminal facilities train new hire students assigned to them. These
initiatives include adding three weeks of additional simulation scenarios at the FAA Academy
for selected students who are assigned to large TRACONs. This Terminal workshop is under
development and will be implemented in May 2010. The FAA is currently studying the potential
of implementing an alternative hiring process that would place new controllers in lower level
facilities and select more experienced controllers into larger, more complex facilities. FAA will


Appendix. Agency Comments
                                                                                                    18


continue monitoring high level facilities such as TRACONS to determine whether further
actions could assist in this area.

FAA Continues to Refine and Improve Controller Test and Evaluation Process

FAA relies upon a carefully designed testing process to serve as one initial screen for new
controller candidates. The existing Air Traffic Selection and Training Test (AT-SAT) required
years of development to ensure that it was accurate, fair, and appropriate. Its predecessors were
challenged extensively in court, and AT-SAT was carefully designed to withstand any similar
challenge. The test was intended to provide a scientifically based screen to better identify
potentially successful air traffic controllers, to increase the efficiency of training and reduce the
training failure rate and its associated costs. It has achieved these objectives. Nonetheless, FAA
recognized early on the potential for further improvements to the testing process. It has been
carefully laying the scientific foundation that is necessary to support modifications to the
ATSAT. This is a painstaking, detailed, and time consuming process to ensure that changes to the
test are well supported, appropriate, and reliable. FAA plans to complete its evaluation of
revised AT-SAT testing within about two years, and subsequently begin implementation.

OIG Recommendations and FAA Responses

OIG Recommendation 1: Evaluate the current AT-SAT test and redesign it so that it results in
air traffic controllers being placed at locations according to their skill sets.

FAA Response: Partially Concur. While the FAA agrees that the AT-SAT should continue to
be an effective element of the air traffic controller hiring selection process, there is not sufficient
scientifically documented evidence that the test, or a modified version thereof, will be a useful
tool to assist in matching new controllers with their service locations. The AT-SAT was
designed and demonstrated only to be a useful indicator of whether a candidate possesses the
requisite skills and abilities to become an air traffic controller. In its present incarnation, it was
neither designed nor intended to offer a mechanism to match trainee performance with the
specific needs of an individual facility.

The draft OIG report ignores the success of the FAA’s recent air traffic controller hiring and
training effort. In the last five years, the FAA has hired over 7,000 new air traffic controllers and
over 3,000 have completed their training to certified professional controller so far. In FY 2009
alone, there was a 48 percent increase, compared to FY 2008, in the number of controller
candidates who completed their certifications. The FAA’s formidable accomplishment in this
area was recognized in February 2009, when the DOT Inspector General testified to Congress
that the FAA has “done what I can only say is a remarkable job in hiring replacements for
controllers who have decided to leave.”

Recognizing the potential exists to further refine and improve the process for matching new
controllers to their assignments, the FAA has already begun exploring using AT-SAT, or a
variation of it, to assist it in making placement decisions. The research necessary to support this
type of testing has been underway and was described to the OIG during the course of its review.
Researchers at the Civil Aerospace Medical Institute (CAMI) are currently conducting two
studies of AT-SAT in this regard. The first study is examining the reliability, fairness, validity,
and usefulness of AT-SAT over the long term (i.e. whether it is a reasonable predictor of
controller success). This includes evaluating new, alternative, and redesigned tests for the


Appendix. Agency Comments
                                                                                                  19


battery. The second study is to gather and evaluate evidence on whether AT-SAT can be used as
a tool to assist in guiding placement decisions for new controllers. The intent is to both
continually improve the current examination and to make any changes needed to meet emerging
requirements for the air traffic controller occupation. All changes to the examination or how it is
used will be made only after there is sufficient scientific evidence to support those changes and
uses.

As described earlier, this type of development must be scrupulously performed and documented
in a manner that will provide sufficient basis to support a decision to move in this direction. The
FAA plans to complete its evaluation of the fairness, reliability, and utility of the AT-SAT
battery as a potential tool to assist in guiding placement decisions by December 31, 2012.

OIG Recommendation 2: Assign controller candidates to a facility based on their academy
performance in conjunction with data currently available.

FAA Response: Partially Concur. FAA has a long and successful track record for effectively
selecting, training, and assigning new controllers to positions in facilities. As indicated earlier,
within the context of contemporary human capital practices, it is not possible for FAA to have a
single focus for assigning new controllers to a facility. As described in the response to
recommendation one, no mechanism is presently available that would provide an explicitly
quantitative, data-driven method for matching controllers and facilities. Even if there was, there
are numerous other factors that must be considered, such as the new controller's preference and
the results of interviews.

The FAA is not convinced that using Academy performance or AT-SAT data for placement
would be any more effective as a predictor of success than the current system of placement.
Initial training at the academy is intended to help the student begin field training, and not
necessarily to become certified controllers. As such, initial academy training is only 10 percent
of the total training given to air traffic control students and successful completion of academy
training is no guarantee of success in any facility. More than 90 percent of new controller
training is accomplished at air traffic control facilities due to significant variations in airspace,
air traffic, and air traffic control procedures and agreements, particularly in the terminal
environment. Of the 881 controllers that were assigned to level 10-12 facilities in FY 2008, 585
were assigned to En Route Centers. These facilities have considerable experience in training new
hires from all hiring sources and should have no trouble training the vast majority of these
developmentals to certified professional controller.

While FAA does not agree with the mechanism of the recommendation, it does agree, that it
would be useful to explore whether there are additional means that could enhance FAA’s already
successful process for placing new controllers at facilities. This includes not only exploring the
potential for testing to be factored into the process, but also redesign of the initial academy
training courses, which in turn will provide a more comprehensive and objective student
assessment strategy that may be used for possible evaluation and placement purposes. The FAA
intends to accomplish this by December 31, 2012.

OIG Recommendation 3: Implement the recommendations of the November 2007 Controller
Training and Development Group for both En Route and Terminal Academy Training.

FAA Response: Partially Concur. The FAA agrees that the November 2007 report had value


Appendix. Agency Comments
                                                                                                20


to redesign the En Route initial training course; however, we do not agree that the same front-end
analysis covers Terminal training. The 2007 front-end analysis was developed for the En
Route environment only and consequently, the recommendations made are germane only to En
Route. As a result of FAA’s efforts in response to the 2007 report, the new En Route course will
go into service during the first quarter of fiscal year 2011 to coincide with the transition of the
majority of En Route centers to the En Route Automation Modernization (ERAM) platform (the
course delivers instruction on ERAM and hence the delay in implementing the course). The
specifics of the En Route course’s student assessment strategy are currently undergoing
refinement.

The FAA agrees that an objective student assessment strategy in initial controller training at the
Academy is essential to further improve the process. Since the 2007 report pertains to En Route
only, the FAA subsequently developed and completed a front-end analysis for the Terminal
environment akin to the referenced 2007 analysis. The Terminal initial training courses are
currently undergoing their own evaluation and redesign, which will close any identified gaps in
the student knowledge and skills expected of an Academy graduate. The FAA will also adopt
lessons learned in the En Route initial course redesign with its new student assessment strategy.
The FAA intends to complete and implement the Terminal course redesign by the end of
calendar year 2012.




Appendix. Agency Comments
